               The Small Business/Self-Employed Division
              Has Made Significant Changes to Enhance the
              Automated Substitute for Return Program, but
               Opportunities Exist for Further Improvement

                                     April 2005

                       Reference Number: 2005-30-073




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      April 28, 2005


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - The Small Business/Self-Employed Division
                                   Has Made Significant Changes to Enhance the Automated
                                   Substitute for Return Program, but Opportunities Exist for
                                   Further Improvement (Audit # 200430003)


      This report presents the results of our review to determine whether the Small
      Business/Self-Employed (SB/SE) Division Automated Substitute for Return (ASFR)
      Program is effectively administered to achieve the desired program results and promote
      taxpayer compliance with the tax laws.1 The ASFR Program focuses on high-income
      taxpayers who have not filed individual income tax returns but appear to owe significant
      income tax liabilities based on available Information Reporting Program information.2
      Internal Revenue Code (I.R.C.) Section (§) 6020(b)3 provides the Internal Revenue
      Service (IRS) with the authority to make a return for a nonfiling taxpayer if the taxpayer
      appears to be liable for the return, the person required to file the return does not file it,
      and attempts to secure the return fail. For Tax Year 2001, the IRS estimated the portion
      of the tax gap attributable to the nonfiling of individual income tax returns was
      $28.1 billion.4



      1
        The SB/SE Division and Wage and Investment Division have administered separate ASFR Programs since 2001.
      The SB/SE Division’s customer base includes fully or partially self-employed individuals.
      2
        Employers, financial institutions, and other business entities are required to submit information returns to the
      Internal Revenue Service (IRS) reporting wages, interest, dividends, nonemployee compensation, and other types of
      income. The IRS uses these information documents in its computer-matching program to determine whether the
      income recipients filed returns and/or reported all of the income.
      3
        I.R.C. § 6020(b) (2004).
      4
        The nonfiling tax gap is the dollar amount of taxes not paid timely on delinquent and nonfiled returns.
                                                         2

In summary, the SB/SE Division ASFR Program is having an increasingly positive effect
on closing a significant portion of the nonfiling tax gap. For example, from Fiscal Years
(FY) 2002 through 2004, the number of ASFR Program returns with tax assessments
increased by 216 percent. During the same period, the total net dollars assessed
amount increased by 101 percent, and the number of 30-day letters issued5 increased
by 337 percent.
While the IRS has taken or planned several important initiatives to increase the
effectiveness of the SB/SE Division ASFR Program and to improve the efficiency of the
ASFR Program work processes, we identified opportunities for further improvement.
One, the SB/SE Division does not have in place for its ASFR Program an established
measure that can be used to routinely compare productivity from period to period.
Management information data showed the number of ASFR Program closures per
Full-Time Equivalent (FTE)6 had declined by 36 percent from FYs 2002 to 2004.
Two, opportunities exist to address repeated filing noncompliance. Although the ASFR
Program is designed to bring nonfilers back into compliance with the expectation they
will file without IRS intervention in subsequent years, the subsequent voluntary filing
compliance rates for individual taxpayers that are treated by the ASFR Program are not
tracked and reported by the IRS. In addition, the limited use of backup withholding7
does not encourage future voluntary filing compliance for those nonfilers whose cases
were unsuccessfully resolved by the ASFR Program.
Three, the National Quality Review System (NQRS)8 data for the ASFR Program was
insufficient to provide management with reliable information for evaluating overall
program quality, detecting error trends, or identifying possible systemic problems. In
FY 2004, the ASFR Program was expected to close about 141,000 cases. Yet,
because ASFR Program cases did not represent a separate product line and were
included in the samples of completed work selected from various compliance programs,
only about 11 ASFR Program cases per month were selected for quality review.
Finally, the inventory of ASFR Program reconsideration9 cases that were considered
over-age ranged from 13 to 38 percent from March through September 2004.
Reconsideration cases are considered over-age if they remain unresolved more than
45 days after they are received by the IRS. Many taxpayers contested ASFR Program


5
  The 30-day letter is the ASFR Program’s first contact with noncompliant taxpayers. It is a notice of proposed
assessment.
6
  An FTE is a measure of labor hours. One FTE is equal to 8 hours multiplied by the number of compensable days
in a particular fiscal year. For FY 2004, 1 FTE was equal to 2,096 staff hours.
7
  Tax laws provide the IRS with the authority to institute backup withholding for those taxpayers who have
underreported interest or dividend income or who failed to file a tax return reporting such income when required.
8
  Prior to October 1, 2004, the NQRS was called the Centralized Quality Review System.
9
  Reconsideration is the process the IRS uses when a taxpayer contests an ASFR Program determination. The
reconsideration cases result from defaulted assessments (e.g., a taxpayer did not respond to the 30-day letter or
90-day letter). The reconsideration cases usually occur when the unpaid accounts enter the enforced collection stage
and the taxpayers are finally motivated to send the IRS completed tax returns or other information to reduce the
ASFR Program assessments.
                                                       3

assessments by providing completed tax returns or other information to various IRS
offices throughout the country. As a result, more than one-half of the
7,032 reconsideration cases received at the Brookhaven Campus10 from other IRS
offices during the last 7 months of FY 2004 were already over-age.
We recommended the Commissioner, SB/SE Division, establish measures to routinely
gauge the productivity and efficiency of ASFR Program operations; develop a tracking
and reporting mechanism to measure the subsequent voluntary filing compliance rates
of the individual taxpayers treated by the ASFR Program; conduct a study to determine
the feasibility of expanding the use of backup withholding to encourage future voluntary
filing compliance, and if necessary, coordinate with the Office of Chief Counsel to draft
legislation to amend I.R.C. § 3406; separate the ASFR Program from other compliance
programs for purposes of NQRS sampling to provide a better overall measure of
program quality; provide guidance to all SB/SE Division collection offices that contribute
to the over-age ASFR Program reconsideration inventory, establish service level
agreements with the offices most responsible for routing delays to set guidelines for
timely submission of ASFR reconsideration returns, and examine whether systemic
solutions could be developed to reduce the percentage of over-age reconsideration
inventory.
Management’s Response: The Commissioner, SB/SE Division, concurred with the
recommendations. The Commissioner, SB/SE Division, will review the current
performance measures and determine the potential for establishing additional measures
that gauge program productivity. The Commissioner, SB/SE Division, also agreed that
changing taxpayer behavior is a key component and will take a subsequent look at
voluntary compliance rates of individuals treated in the ASFR Program for the purpose
of developing other strategies for dealing with nonfilers. In addition, the Commissioner,
SB/SE Division, has established for FY 2005, separate workgroup codes, separate
weighted reports, and a separate sample available for review. In FY 2007, the ASFR
Program will be developed as a Specialized Product Review Group on the NQRS. The
Commissioner, SB/SE Division, will also revisit the procedures and develop processes
for monitoring and handling ASFR Program cases to reduce the percentage of over-age
reconsideration inventory.
While the Commissioner, SB/SE Division, agreed to explore the feasibility of the
revision/expansion of the backup withholding definition to include nonwage income,
review the options, and proceed in the best interest of sound tax administration, the
Commissioner disagreed with the outcome measure. The Commissioner, SB/SE
Division, is uncertain whether the potential increase of $45 million in revenue could be
realized over 5 years from an increase in backup withholding, as revenue is already
collected from backup withholding on cases meeting criteria. Further, the
Commissioner, SB/SE Division, stated the intent of the ASFR Program is to encourage
taxpayers to file outstanding returns or determine whether a tax liability exists, rather


10
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                          4

than to raise revenue. Management’s complete response to the draft report is included
as Appendix V.
Office of Audit Comment: While we are encouraged the Commissioner, SB/SE Division,
will explore the feasibility of revising/expanding backup withholding treatment, we
disagree that additional revenue could not be realized from an expanded application of
backup withholding. The ASFR Program is a critical tool used to combat tax
noncompliance, a top priority for the IRS. Applying backup withholding treatment to all
nonwage income sources that form the basis for the nonfiling condition worked by the
ASFR Program would increase revenue and deter noncompliance, allowing for earlier
intervention and a reduction of subsequent enforcement actions.

Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Philip
Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (215) 516-2341.
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement




                                                   Table of Contents


 Background ............................................................................................... Page 1
 Program Effectiveness Measures Show Improvement.............................. Page 3
 Productivity and Efficiency Measures Are Needed.................................... Page 9
          Recommendation 1: .......................................................................Page 12

 Opportunities Exist to Address Repeated Filing Noncompliance .............. Page 12
          Recommendations 2 and 3: ...........................................................Page 15

 Limited Quality Assurance Data Are Available on Closed Case Work ...... Page 16
          Recommendation 4: .......................................................................Page 18

 Over-age Reconsideration Case Inventory Has Been Reduced
 but Remains at a High Level ..................................................................... Page 18
          Recommendation 5: .......................................................................Page 20

 Appendix I – Detailed Objective, Scope, and Methodology....................... Page 21
 Appendix II – Major Contributors to This Report ....................................... Page 24
 Appendix III – Report Distribution List ....................................................... Page 25
 Appendix IV – Outcome Measures............................................................ Page 26
 Appendix V – Management’s Response to the Draft Report ..................... Page 28
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                  The United States tax system generally involves taxpayers
Background
                                  self-reporting and paying their tax liabilities. In
                                  February 2004, the Internal Revenue Service (IRS)
                                  Commissioner estimated the United States Department of
                                  the Treasury loses one-quarter of a trillion dollars each year
                                  because taxpayers do not pay their taxes voluntarily or
                                  timely.1 The three components of this tax gap (i.e., the
                                  difference between what taxpayers actually owe and what is
                                  timely collected by the IRS) are filing noncompliance,
                                  payment noncompliance, and reporting noncompliance. For
                                  Tax Year (TY) 2001, the IRS estimated the portion of the
                                  tax gap attributable to the nonfiling of individual income tax
                                  returns was $28.1 billion.2
                                  The individual nonfiling population has been growing at
                                  nearly twice the rate of the individual filing population. For
                                  example, between TYs 1994 and 2001, there was a
                                  65 percent increase in the number of individual accounts
                                  with no return filed while the filing population increased
                                  only 33 percent. Because the IRS does not have the
                                  resources to address every identified case of potential
                                  taxpayer noncompliance, case creation criteria have been
                                  established to prioritize the universe of identified nonfilers
                                  and the type(s) of compliance action to be taken on each
                                  case. The IRS generally works those nonfiler cases that are
                                  judged to have the best potential to result in significant net
                                  taxes due.
                                  Internal Revenue Code (I.R.C.) Section (§) 6020(b)3
                                  provides the IRS with the authority to make a return for a
                                  nonfiling taxpayer if the taxpayer appears to be liable for the
                                  return, the person required to file the return does not file it,
                                  and attempts to secure the return fail. For nonfiled
                                  individual income tax returns, the IRS uses this authority in




                                  1
                                    Prepared Testimony of IRS Commissioner Mark Everson Before the
                                  Permanent Subcommittee on Investigations, Senate Committee on
                                  Governmental Affairs, on Collecting Taxes From Defense Department
                                  Contractors, February 12, 2004.
                                  2
                                    The nonfiling tax gap is the dollar amount of taxes not paid timely on
                                  delinquent and nonfiled returns.
                                  3
                                    I.R.C. § 6020(b) (2004).
                                                                                                   Page 1
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                  its Automated Substitute for Return (ASFR) Program.4 The
                                  ASFR Program focuses on high-income taxpayers who have
                                  not filed individual income tax returns but appear to owe
                                  significant income tax liabilities based on available
                                  Information Reporting Program (IRP) information.5
                                  The ASFR Program is an automated deficiency assessment
                                  process which generates a notice of proposed assessment
                                  (30-day letter) based on the IRP data. Taxpayers may
                                  respond in one of several ways. First, a taxpayer could
                                  respond by filing a tax return. Second, a taxpayer could
                                  reply with an explanation about why he or she is not liable
                                  to file a tax return. Third, a taxpayer could agree to the
                                  assessment as proposed. Finally, a taxpayer could reply
                                  with information different from that used to compute the
                                  proposed assessment, based on changes to filing status,
                                  dependents, credits, and deductions. When a taxpayer does
                                  not satisfactorily respond to the 30-day letter, the IRS
                                  confirms that the taxpayer receives mail at the address of
                                  record and issues a Statutory Notice of Deficiency (90-day
                                  letter) as authorized by I.R.C. § 6212.6 The taxpayer may
                                  respond as above for the 30-day letter or file a petition in
                                  Tax Court to contest the proposed assessment. If the
                                  taxpayer does not satisfactorily respond and does not
                                  petition the Tax Court, the deficiency is assessed, and the
                                  taxpayer is billed.
                                  The scope of this review was limited to the ASFR Program
                                  administered by the SB/SE Division. The review was
                                  performed during the period March through October 2004
                                  at the SB/SE Division Headquarters office in
                                  New Carrollton, Maryland, and at the SB/SE Division
                                  consolidated ASFR Program site at the Brookhaven


                                  4
                                    The Small Business/Self-Employed (SB/SE) Division and Wage
                                  and Investment Division have administered separate ASFR Programs
                                  since 2001. The SB/SE Division’s customer base includes fully or
                                  partially self-employed individuals.
                                  5
                                    Employers, financial institutions, and other business entities are
                                  required to submit information returns to the IRS reporting wages,
                                  interest, dividends, nonemployee compensation, and other types of
                                  income. The IRS uses these information documents in its
                                  computer-matching program to determine whether the income recipients
                                  filed returns and/or reported all of the income.
                                  6
                                    I.R.C. § 6212 (2004).
                                                                                              Page 2
  The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
  Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                    Campus7 in Holtsville, New York. The audit was conducted
                                    in accordance with Government Auditing Standards. Some
                                    of the data used in this report came from various IRS
                                    reports. We did not verify the accuracy of the information
                                    from those sources. Detailed information on our audit
                                    objective, scope, and methodology is presented in
                                    Appendix I. Major contributors to the report are listed in
                                    Appendix II.
                                    Several key performance effectiveness measures show the
Program Effectiveness Measures
                                    SB/SE Division ASFR Program is having an increasingly
Show Improvement
                                    positive effect on closing a significant portion of the
                                    nonfiling tax gap. As shown in Figure 1, for example, the
                                    number of ASFR Program returns with tax assessments
                                    increased by 216 percent from Fiscal Years (FY) 2002
                                    through 2004. During the same 3-year period, the number
                                    of noncompliant taxpayers who were affected by an ASFR
                                    Program enforcement action increased by 224 percent.
                                         Figure 1: Selected ASFR Program Effectiveness Measures
                                                      FYs 2002-2004, SB/SE Division




                                         Number of                                       101,108
                                        Returns With                             79,023
                                        Assessments               31,992



                                          Number of                                  88,310
                                          Taxpayers                            71,211            FY 2004
                                           Affected                                              FY 2003
                                                                27,267
                                                                                                 FY 2002

                                    Source: SB/SE Division management information reports.

                                    Figure 2 shows the total net dollars assessed amount, which
                                    considers assessments for taxes, penalties, interest, and any


                                    7
                                     The campuses are the data processing arm of the IRS. They process
                                    paper and electronic submissions, correct errors, and forward data to the
                                    Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                     Page 3
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                  prepaid credits, increased by 101 percent from FYs 2002
                                  to 2004.
                                      Figure 2: ASFR Program Monetary Performance Measure
                                                   FYs 2002-2004, SB/SE Division

                                                     Net Dollar Assessed Amount
                                                            (in millions)


                                                                  $1,630           $1,509

                                                 $750




                                                 FY 2002          FY 2003          FY 2004

                                  Source: SB/SE Division management information reports.

                                  Various work activity measures for the SB/SE Division
                                  ASFR Program also show important increases from
                                  FYs 2002 through 2004. As shown in Figure 3, the number
                                  of 30-day letters issued, which is the ASFR Program’s first
                                  contact with noncompliant taxpayers, increased by
                                  337 percent, and the number of Full-Time Equivalents
                                  (FTE)8 applied to ASFR Program cases increased by
                                  178 percent. In addition, Figure 3 shows the number of
                                  ASFR Program reconsideration9 case receipts, which
                                  involve taxpayer-initiated contact with the IRS after the
                                  ASFR Program case has been closed, declined by
                                  13 percent. Reconsideration cases provide taxpayers with
                                  an opportunity to file a tax return after an ASFR Program
                                  default assessment has been made. To the extent the
                                  number of reconsideration cases can be reduced, resources
                                  are available to work additional ASFR Program cases.
                                  During this 3-year period, the number of FTEs applied by


                                  8
                                    An FTE is a measure of labor hours. One FTE is equal to 8 hours
                                  multiplied by the number of compensable days in a particular fiscal
                                  year. For FY 2004, 1 FTE was equal to 2,096 staff hours.
                                  9
                                    The process the IRS uses when the taxpayer contests an ASFR
                                  Program determination by filing an original delinquent return.
                                                                                                  Page 4
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                  the SB/SE Division to ASFR Program reconsideration cases
                                  decreased by 19 percent.
                                       Figure 3: Selected ASFR Program Work Activity Measures
                                                     FYs 2002-2004, SB/SE Division

                                           Activity               FY 2002       FY 2003       FY 2004

                                   Number of 30-Day                74,446        161,548       325,276
                                   Letters Issued

                                   FTEs Applied to                  53.9          104.2         149.6
                                   ASFR Program Cases

                                   ASFR Program                    25,816         15,674        22,593
                                   Reconsideration Case
                                   Receipts10

                                   FTEs Applied to ASFR             38.8           25.2          31.5
                                   Program
                                   Reconsideration Cases

                                  Source: SB/SE Division management information reports.

                                  New initiatives have been implemented or planned to
                                  improve the ASFR Program
                                  During the past 3 years, the IRS has taken or planned
                                  several important organizational and procedural initiatives
                                  to increase the effectiveness of the SB/SE Division
                                  ASFR Program and to improve the efficiency of the
                                  ASFR Program work processes.




                                  10
                                    An ASFR Program reconsideration case can occur months or years
                                  after the defaulted ASFR Program assessment is made; therefore, it is
                                  inappropriate to compare the percentage of reconsideration cases to the
                                  number of 30-day letters issued for each fiscal year.
                                                                                                  Page 5
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                  •    Schedule K-111 cases – Taxpayers who received income
                                       from flow-through entities,12 such as partnerships and
                                       Subchapter S corporations, were first included in the
                                       SB/SE Division’s nonfiler selection codes for TY 2001.
                                       If unresolved, these cases are designated for ASFR
                                       Program treatment. This was a significant expansion of
                                       the potential inventory for the SB/SE Division ASFR
                                       Program because, for TY 2001, there were over
                                       2.1 million partnerships with a total of more than
                                       14.2 million partners and almost 3 million
                                       Subchapter S corporations that had a total of nearly
                                       5.4 million shareholders.
                                  •    Nonemployee compensation13 cases – Nonfiler cases
                                       involving self-employed individuals with nonemployee
                                       compensation were added to the ASFR Program in
                                       May 2003. This was another important expansion of the
                                       ASFR Program for the SB/SE Division because,
                                       historically, tax compliance among independent
                                       contractors who earn nonemployee compensation has
                                       been significantly lower than that of wage earners whose
                                       taxes are withheld by their employers.
                                  •    Increased funding – For FY 2004, the funding for the
                                       SB/SE Division’s ASFR Program was increased by
                                       66 positions. For FY 2005, an additional 37 FTEs are
                                       planned, although the uncertainty of the IRS budget for
                                       FY 2005 could prevent this from occurring. For
                                       FY 2006, the IRS is planning for an additional 65 FTEs
                                       for the SB/SE Division ASFR Program.



                                  11
                                     Partner’s Share of Income, Credits, Deductions, etc. (Schedule K-1) is
                                  used to show each partner’s share of the income from a partnership.
                                  Shareholder’s Share of Income, Credits, Deductions, etc. (Schedule K-1)
                                  is used to show each shareholder’s share of the income from a
                                  Subchapter S corporation.
                                  12
                                     Certain businesses that are not subject to income tax, such as
                                  partnerships and small business corporations, are often referred to as
                                  “pass-through” or “flow-through” entities. In general, the profits or
                                  losses from these businesses pass through to the individual partners or
                                  shareholders who must report their shares of the profits or losses on
                                  their individual income tax returns.
                                  13
                                     Nonemployee compensation is reported to the IRS on statements for
                                  recipients of Miscellaneous Income (Forms 1099-MISC).
                                                                                                   Page 6
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                  •    Consolidation of the ASFR Program campus sites –
                                       In January 2004, the ASFR Program work processes
                                       were consolidated at the Brookhaven Campus from the
                                       SB/SE Division’s four other campus locations. This
                                       consolidation was expected to improve the efficiency of
                                       the ASFR Program operations and improve customer
                                       satisfaction through easier and more personalized
                                       access.
                                  •    Refund Hold Program cases – In January 2004, refund
                                       hold cases were added to the ASFR Program and made
                                       the top work priority. Prior to that time, the Automated
                                       Collection System (ACS)14 function worked most
                                       Refund Hold Program cases; however, its effectiveness
                                       was limited because the ACS function did not have the
                                       authority to make Substitute for Return assessments.
                                       The Refund Hold Program delays issuing an income tax
                                       refund while the IRS investigates a return delinquency
                                       on another tax year. The primary reason for holding a
                                       refund is the IRS believes there will be a balance due on
                                       the delinquent return when filed and the refund will be
                                       applied to the liability. Internal controls are in place in
                                       the ASFR Program to assure refund credits are
                                       transferred to the nonfiled tax periods. Also, a systemic
                                       change is planned to automatically move the refund
                                       credits to the nonfiled tax periods at the time the 90-day
                                       letter is issued to the taxpayer.
                                  •    Postal tracer checks – Redundant postal tracer checks
                                       were eliminated from the ASFR Program work
                                       processes in March 2004. This action was designed to
                                       reduce ASFR Program case processing time and
                                       eliminate the number of erroneous “unable to locate”
                                       ASFR Program dispositions.
                                  •    Power-of-Attorney (POA) checks – A programming
                                       change was requested in May 2004 to systemically
                                       provide POA information prior to mailing the 30-day
                                       and 90-day letters. This programming change, which is


                                  14
                                    The ACS function attempts to resolve return delinquency cases on
                                  taxpayers that have not responded to the initial notices and/or do not
                                  meet the criteria for ASFR Program assignment. Attempts are made to
                                  contact the taxpayer by telephone and/or letter.
                                                                                                 Page 7
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                       expected to be operational by March 2005, will free the
                                       ASFR Program tax examiners from time-consuming
                                       manual research to locate the POAs authorized to
                                       receive copies of the 30-day and 90-day letters.
                                  •    Delinquent account checks – Another programming
                                       change was requested in May 2004 to check for the
                                       presence of a delinquent account for the same taxpayer.
                                       When identified, the potential ASFR Program case will
                                       be automatically transferred to the ACS function rather
                                       than being shown as a failed error condition on the
                                       ASFR Program’s weekly error listing. This change is
                                       scheduled to be operational in March 2005.
                                  •    Systemic ASFR Program closures – A third
                                       programming change, requested in May 2004, will
                                       systemically close a case off of the ASFR Program
                                       system if the weekly update shows the ASFR Program
                                       Taxpayer Delinquency Investigation (TDI)15 was closed
                                       (e.g., the taxpayer filed the return) prior to issuance of
                                       the 30-day letter. This change is also expected to be
                                       operational in March 2005.
                                  •    Predictive dialer – The IRS plans to use a predictive
                                       dialer16 in working ASFR Program cases in 2005. This
                                       technology enhancement has the potential to
                                       substantially improve ASFR Program effectiveness and
                                       efficiency. The ASFR Program has traditionally
                                       communicated with taxpayers through written
                                       correspondence. During the last 2 quarters of
                                       FY 1998, the IRS tested17 the effectiveness of
                                       telephonically contacting taxpayers during the 30-day
                                       and 90-day letter process. The test data showed a
                                       40 percent taxpayer response rate compared to
                                       23 percent in FY 1997, 26 percent in FY 1996, and
                                       31 percent in FY 1995 when telephone contact was not

                                  15
                                     A TDI involves a taxpayer who has not filed a required tax return by
                                  the return due date.
                                  16
                                     A predictive dialer is a telephone control system that automatically
                                  calls a list of telephone numbers in sequence and screens out
                                  no-answers, busy signals, answering machines, and disconnected
                                  numbers.
                                  17
                                     Telecomputer Test for the ASFR Program in the Austin Service
                                  Center, conducted in FY 1998.
                                                                                                   Page 8
  The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
  Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                         used. The test data also showed a 33 percent
                                         return-secured rate compared to 13 percent in
                                         FY 1997, 10 percent in FY 1996, and 5 percent in
                                         FY 1995.
                                    The existence of productivity and efficiency measures
Productivity and Efficiency
                                    ensures compliance with the Government Accountability
Measures Are Needed
                                    Office’s Standards for Internal Control in the Federal
                                    Government that requires agencies to establish and monitor
                                    performance measures and indicators. The SB/SE Division
                                    does not have in place for its ASFR Program an established
                                    measure that can be used to compare productivity from
                                    period to period. While ad hoc studies can be made to
                                    determine the levels of productivity, IRS management
                                    advised us there was a reluctance to establish a permanent
                                    productivity measure because of the fear that these measures
                                    could be misused and possibly violate the IRS Restructuring
                                    and Reform Act of 1998.18
                                    However, without sufficient measures to analyze business
                                    results, management does not have a clear picture of the
                                    effectiveness of the ASFR Program. Earlier in this report,
                                    we cited positive increases in the number of ASFR Program
                                    returns with assessments, number of taxpayers affected, net
                                    dollars assessed, etc. However, further analysis to evaluate
                                    ASFR Program productivity and effectiveness shows the
                                    improvements may not be quite so positive. For example,
                                    we analyzed the number of ASFR Program closures with
                                    assessments per FTE (i.e., the labor cost), the number of
                                    ASFR Program reconsideration closures per FTE, and the
                                    number of ASFR Program closures per FTE. While the
                                    number of ASFR Program returns assessed per FTE has
                                    increased, the other measures have declined from FYs 2002
                                    to 2004.
                                    Figure 4 shows the number of ASFR Program returns
                                    assessed per FTE in FY 2004 increased 14 percent in
                                    comparison to FY 2002, and the number of ASFR Program
                                    reconsiderations closed per FTE decreased by 26 percent.



                                    18
                                      Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                    sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                    23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                   Page 9
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                       Figure 4: Selected ASFR Program Productivity Measures
                                                   FYs 2002-2004, SB/SE Division19




                                                                                 Number of ASFR Program
                                                       Number of ASFR Program
                                                                                Reconsideration Closures per
                                                       Returns Assessed per FTE
                                                                                           FTE
                                             FY 2002            594                          827
                                             FY 2003            759                          606
                                             FY 2004            676                          612

                                  Source: SB/SE Division Service Center Collection Branch Delinquent
                                  Returns Activity Reports (Report Symbol NO-5000-139) and Work
                                  Planning and Control Reports.

                                  Similarly, Figure 5 shows that the number of ASFR
                                  Program closures per FTE in FY 2004 declined by
                                  36 percent from FY 2002 levels.




                                  19
                                    Calculation of Number of ASFR Program Returns Assessed per FTE:
                                  ASFR Program Returns Assessed divided by Total ASFR Program
                                  FTEs (direct FTEs plus overhead allocation). Calculation of ASFR
                                  Program Reconsideration Closures per FTE: Number of ASFR Program
                                  Reconsideration Closures divided by Total ASFR Program FTEs (direct
                                  FTEs plus overhead allocation).
                                                                                                               Page 10
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                              Figure 5: ASFR Program Closures per FTE
                                                   FYs 2002-2004, SB/SE Division20

                                             Number of ASFR Program Closures per FTE
                                                                    3,129


                                            2,375


                                                                                          1,514




                                           FY 2002               FY 2003                FY 2004

                                  Source: ASFR 200 Reports 21 and Work Planning and Control Reports.

                                  According to IRS management, several factors contributed
                                  to the decline in productivity in FY 2004:
                                  •    In preparation for the ASFR Program consolidation in
                                       January 2004, the 4 campuses that discontinued ASFR
                                       Program processing ceased to mail 30-day letters to
                                       taxpayers after March 2003, to minimize taxpayer
                                       burden in responding to multiple IRS locations.
                                  •    The ASFR Program computer system was down from
                                       about December 9, 2003, until February 9, 2004, due to




                                  20
                                     Calculation of Number of ASFR Program Closures per FTE: Number
                                  of ASFR Program Closures divided by Total ASFR Program FTEs
                                  (direct FTEs plus overhead allocation). Unlike prior years, in FY 2004 a
                                  programming problem resulted in a high volume of reassignments to
                                  other functions being counted as ASFR Program closures. The
                                  programming problem has been corrected and the excessive number of
                                  reassignments was subtracted from the count of ASFR Program
                                  FY 2004 closures.
                                  21
                                     An ASFR 200 Report is generated weekly, showing the ASFR
                                  Program’s receipts, closings, and ending inventory.
                                                                                                  Page 11
  The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
  Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                         the Taxpayer Information File (TIF)22 consolidation and
                                         the consolidation of all of the SB/SE Division ASFR
                                         Program activities at the Brookhaven Campus.
                                    •    The consolidation of the ASFR Program at one site in
                                         January 2004 required significant time in training new
                                         employees.

                                    Recommendation

                                    The Commissioner, SB/SE Division, should:
                                    1. Establish measures to provide management with the
                                       means to routinely gauge the productivity and efficiency
                                       of ASFR Program operations and to effectively assess
                                       the impact of changes to ASFR Program policy or work
                                       processes.
                                    Management’s Response: The Commissioner, SB/SE
                                    Division, will review the current performance measures and
                                    determine the potential for establishing additional measures
                                    that gauge program productivity.
                                    The success of the United States tax system is dependent on
Opportunities Exist to Address
                                    taxpayers’ perception that others self-report their tax
Repeated Filing Noncompliance
                                    liability by filing a return. To assist the IRS in evaluating
                                    taxpayers’ voluntary filing compliance, measures should be
                                    established to improve the IRS’ ability to detect
                                    noncompliance. An IRS study23 of individual nonfilers
                                    showed repeaters play a significant role in filing
                                    noncompliance but are inadequately flagged by the nonfiler
                                    identification system. For example, repeaters made up
                                    51 percent of the 1998 Collection Compliance File,24
                                    accounted for 72 percent of all nonfiler leads during 1996
                                    to 1998, and averaged 2.5 tax periods per individual. The


                                    22
                                       The TIF is the primary database for the Integrated Data Retrieval
                                    System, which enables IRS employees in service centers and Area
                                    Offices to have instantaneous visual access to certain taxpayer accounts.
                                    23
                                       Individual Master File Repeat Nonfilers, by SB/SE Division Research
                                    function, dated September 2002.
                                    24
                                       The Collection Compliance File is a database of leads for systemically
                                    identified potential nonfilers of individual income tax returns that are
                                    compiled by tax year using the Collection Compliance Nonfiler
                                    Identification Process.
                                                                                                   Page 12
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                  cumulative projected balance due for repeat nonfilers was
                                  $63 billion for 1996 to 1998.
                                  The ASFR Program lacks a measure of effectiveness in
                                  promoting subsequent voluntary compliance
                                  The ASFR Program is designed to bring nonfilers back into
                                  compliance with the expectation that they will file without
                                  IRS intervention in subsequent years. However, the
                                  subsequent voluntary filing compliance rates for individuals
                                  that are treated by the ASFR Program, a key and essential
                                  measure of the long-term success of the ASFR Program, is
                                  not tracked and reported by the IRS. As a result, the IRS is
                                  unable to evaluate whether the ASFR Program goal to
                                  promote voluntary filing compliance is being achieved.
                                  In 2003, the IRS completed a study25 that showed the
                                  subsequent voluntary filing compliance by individuals
                                  treated by the ASFR Program for TYs 1996 and 1997
                                  averaged 41 percent for the first year and 37 percent for the
                                  second year following the disposition of the ASFR Program
                                  case. The study concluded that, if an individual does file
                                  subsequent to ASFR Program treatment, it appears that he
                                  or she continues to file for multiple years. However, the
                                  voluntary filing rate does decline in the subsequent years.
                                  For FY 2004, the SB/SE Division ASFR Program resulted
                                  in net tax assessments of more than $1.509 billion.26 If the
                                  same 41 percent subsequent year filing compliance rate
                                  identified by the IRS study continues to exist, the IRS can
                                  expect to voluntarily collect approximately $619 million
                                  from the taxpayers that were treated by the SB/SE Division
                                  ASFR Program in FY 2004. This leaves approximately
                                  59 percent, or $890 million, that may not be voluntarily
                                  filed with and paid to the IRS.




                                  25
                                     Automated Substitute for Return Subsequent Fact of Filing, by SB/SE
                                  Division Research function, dated May 2003.
                                  26
                                     SB/SE Division Service Center Collection Branch Delinquent
                                  Returns Activity Report (Report Symbol NO-5000-139), dated
                                  September 29, 2004.
                                                                                               Page 13
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                  Backup withholding could be expanded to reduce
                                  repeated filing noncompliance
                                  The tax laws27 provide for backup withholding in certain
                                  circumstances. Backup withholding may be imposed, for
                                  example, when taxpayers underreport their interest or
                                  dividend income or failed to file a tax return reporting such
                                  income when required. Once identified by the IRS as
                                  potential subjects to backup withholding, taxpayers who
                                  underreport their interest or dividend income are sent
                                  several notices asking that the problem be corrected. The
                                  final notice informs the taxpayers they are now subject to
                                  backup withholding and the IRS is notifying the payors to
                                  begin withholding (at a rate of 28 percent).
                                  However, the issuance of the ASFR Program’s initial
                                  contact letter requesting a filed return from the taxpayer
                                  suspends backup withholding treatment. Generally, backup
                                  withholding treatment remains suspended until an
                                  assessment with a significant dollar amount is made. When
                                  a taxpayer responds to ASFR Program contact by
                                  submitting a filed return, an assessment can be made using
                                  the information from the return. Often, though, the taxpayer
                                  does not respond to ASFR Program contacts and remains
                                  noncompliant. In such instances, a default assessment is
                                  made based on income information available from third
                                  parties.
                                  In May 2004, the IRS transferred responsibility for its
                                  Backup Withholding Program from the Wage and
                                  Investment (W&I) Division to the SB/SE Division because
                                  of limited program results. At the time we completed our
                                  review, the SB/SE Division was researching the tax laws
                                  and regulations as a first step in evaluating the application
                                  of the backup withholding authority to the ASFR Program.
                                  At present, backup withholding is primarily limited to
                                  interest or dividend income. This limitation prevents IRS
                                  from encouraging future voluntary filing compliance for
                                  those nonfilers whose cases were unsuccessfully resolved by
                                  the ASFR Program. If backup withholding treatment was
                                  expanded to cover all sources of nonwage income (e.g.,


                                  27
                                       26 U.S.C. § 3406 (2004).
                                                                                        Page 14
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                  pensions, annuities, etc.) that form the basis for the
                                  nonfiling condition, we estimate the IRS could expect to
                                  collect an additional $9 million per year, or an additional
                                  $45 million over the next 5 years. See Appendix IV for
                                  details.

                                  Recommendations

                                  To assist the IRS in its efforts to improve voluntary filing
                                  compliance, the Commissioner, SB/SE Division, who has
                                  the overall responsibility for the SB/SE Division
                                  compliance programs, should:
                                  2. Develop a tracking and reporting mechanism to measure
                                     the subsequent voluntary filing compliance rates of the
                                     individual taxpayers treated by the ASFR Program.
                                  Management’s Response: The Commissioner, SB/SE
                                  Division, agreed that changing taxpayer behavior is a key
                                  component and will take a subsequent look at voluntary
                                  compliance rates of individuals treated in the ASFR
                                  Program for the purpose of developing other strategies for
                                  dealing with nonfilers.
                                  3. Conduct a study to determine the feasibility of
                                     expanding backup withholding treatment to all nonwage
                                     income sources that form the basis for the nonfiling
                                     condition, and if necessary, coordinate with the Office
                                     of Chief Counsel to draft legislation to amend
                                     I.R.C. § 3406.28 To ensure equal treatment of taxpayers
                                     in similar situations, consideration in implementing this
                                     recommendation should also take the W&I Division
                                     ASFR Program into account.
                                  Management’s Response: The Commissioner, SB/SE
                                  Division, stated nonfilers are considered for backup
                                  withholding under current Internal Revenue regulations;
                                  however, the Commissioner, SB/SE Division, will explore
                                  the feasibility of the revision/expansion of the backup
                                  withholding definition to include nonwage income, review
                                  the options, and proceed in the best interest of sound tax
                                  administration. The Commissioner, SB/SE Division,


                                  28
                                       26 U.S.C. § 3406 (2004).
                                                                                         Page 15
  The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
  Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                    disagrees with the potential increase of $45 million in
                                    revenue over 5 years as revenue is already collected from
                                    backup withholding on cases meeting the criteria. Further,
                                    the Commissioner, SB/SE Division, stated the intent of the
                                    ASFR Program is to encourage taxpayers to file outstanding
                                    returns or determine whether a tax liability exists, rather
                                    than to raise revenue.
                                    Office of Audit Comment: While we are encouraged the
                                    Commissioner, SB/SE Division, will explore the feasibility
                                    of revising/expanding backup withholding treatment, we
                                    disagree that additional revenue could not be realized from
                                    an expanded application of backup withholding. The ASFR
                                    Program is a critical tool used to combat tax noncompliance,
                                    a top priority for the IRS. Applying backup withholding
                                    treatment to all nonwage income sources that form the basis
                                    for the nonfiling condition worked by the ASFR Program
                                    would increase revenue and deter noncompliance, allowing
                                    for earlier intervention and a reduction of subsequent
                                    enforcement actions.
                                    The SB/SE Division FY 2003 and FY 2004 Compliance
Limited Quality Assurance Data
                                    Operations Program Letters emphasized the IRS goal to
Are Available on Closed Case
                                    provide top-quality service to each taxpayer in every
Work
                                    interaction and to all taxpayers through fair and uniform
                                    application of the law. To determine the degree to which
                                    this goal is being achieved, management needs quality
                                    measurement systems in place that provide statistically valid
                                    results. Quality review data is also needed by management
                                    to provide a basis for measuring and improving program
                                    effectiveness.
                                    The IRS uses the National Quality Review System
                                    (NQRS)29 to measure the accuracy rates achieved by a
                                    multitude of compliance programs at its various campus
                                    locations. However, ASFR Program cases do not represent
                                    a separate product line and are included in the quality
                                    review samples selected from various other compliance
                                    programs.30 Therefore, an extremely small number of ASFR

                                    29
                                       Prior to October 1, 2004, the NQRS was called the Centralized
                                    Quality Review System.
                                    30
                                       The other compliance programs include Taxpayer Delinquent
                                    Account (TDA) Balance Due, TDA Offer in Compromise, TDI, and
                                    Trust Fund Recovery Penalty.
                                                                                               Page 16
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                  Program cases is selected for quality review in any one time
                                  period.
                                  The ASFR Program involves three distinct types of cases:
                                  proposed assessment cases, reconsideration cases, and
                                  refund hold cases. In FY 2004, the ASFR Program was
                                  expected to close about 141,000 cases. As of July 2004,
                                  only 109 ASFR Program cases, or an average of 11 cases
                                  per month, had been selected for NQRS sampling. These
                                  included 72 proposed assessment cases, 37 reconsideration
                                  cases, and zero refund hold cases. This limited sampling is
                                  insufficient to provide management with reliable
                                  information for evaluating overall ASFR Program quality,
                                  detecting error trends, or identifying possible systemic
                                  problems.
                                  The NQRS results for the ASFR Program varied
                                  significantly from the quality review results determined by
                                  the ASFR Program managers in evaluating the individual
                                  performance of the ASFR Program tax examiners.31 As of
                                  July 2004, for example, the 2 measures for timeliness varied
                                  by 13 percent and the 2 measures for customer accuracy
                                  varied by 10 percent.32 The samples of cases selected for
                                  managerial reviews were significantly larger than the
                                  samples of ASFR Program cases selected for the NQRS.
                                  Due to the consolidation of the ASFR Program at one site,
                                  management at the Brookhaven Campus has requested that
                                  the NQRS treat ASFR Program cases as a separate product
                                  line. At the time we completed our review, a final decision
                                  on this request had not been made.

                                  Recommendation

                                  The Commissioner, SB/SE Division, who is responsible for
                                  the overall ASFR Program, should:


                                  31
                                     Managerial reviews are performed to evaluate individual employee
                                  performance and are performed independently from national and local
                                  quality reviews.
                                  32
                                     The timeliness measure was 98 percent according to the managerial
                                  reviews and 85 percent according to the NQRS. Customer accuracy was
                                  85 percent according to the managerial reviews and 75 percent
                                  according to the NQRS.
                                                                                             Page 17
  The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
  Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                    4. Separate the ASFR Program from other compliance
                                       programs for purposes of the NQRS sampling, as
                                       suggested by the Brookhaven Campus, to provide a
                                       statistically valid measure of program quality and to
                                       provide ASFR Program management with a sound basis
                                       for taking actions that affect policies, procedures, and
                                       operational practices.
                                    Management’s Response: The Commissioner, SB/SE
                                    Division, has established for FY 2005, separate workgroup
                                    codes, separate weighted reports, and a separate sample
                                    available for review. In FY 2007, the ASFR Program will
                                    be developed as a Specialized Product Review Group on the
                                    NQRS.
                                    Reconsideration is the process the IRS uses when a taxpayer
Over-age Reconsideration Case
                                    contests an ASFR Program assessment by filing an original
Inventory Has Been Reduced but
                                    delinquent return. The reconsideration cases result from
Remains at a High Level
                                    defaulted assessments (e.g., a taxpayer did not respond to
                                    the 30-day letter or 90-day letter). The reconsideration
                                    cases usually occur when the unpaid accounts enter the
                                    enforced collection stage and the taxpayers are finally
                                    motivated to send the IRS a completed tax return or other
                                    information to reduce the ASFR Program assessment. This
                                    can happen months or up to 2 years after the defaulted
                                    ASFR Program assessment is made.
                                    The untimely resolution of ASFR Program reconsideration
                                    cases could adversely affect taxpayer relations and result in
                                    additional taxpayer interest costs being incurred.
                                    Reconsideration cases are considered over-age if they
                                    remain unresolved more than 45 days after they are received
                                    by the IRS. The Brookhaven Campus has monitored
                                    over-age ASFR Program reconsideration cases on a weekly
                                    basis33 since the week of March 3, 2004. From March to
                                    September 2004, the inventory of reconsideration cases
                                    ranged from 1,660 to 4,531 cases, and the percentage of
                                    over-age cases ranged from 13 to 38 percent.

                                    Many taxpayers contested ASFR Program default
                                    assessments by providing completed tax returns or other


                                    33
                                      This report is entitled ASFR Weekly Report and includes numerous
                                    case inventory data.
                                                                                               Page 18
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                  information to various IRS offices throughout the country.
                                  As a result, the ASFR Program reconsideration cases are
                                  frequently over-age by the time they are received at the
                                  Brookhaven Campus. To address this over-age problem,
                                  ASFR Program national policy staff initiated the generation
                                  of transcripts. One transcript is forwarded to the SB/SE
                                  Division’s consolidated ASFR Program site, the
                                  Brookhaven Campus, alerting management that a taxpayer
                                  filed a return with the IRS. The other transcript goes to the
                                  IRS site where the taxpayer filed the return, informing the
                                  Files unit to pull the return and route it to the appropriate
                                  site.
                                  Beginning in March 2004, the Brookhaven Campus began
                                  monitoring ASFR Program reconsideration cases received
                                  from other IRS offices. For the last 7 months of FY 2004,
                                  this monitoring showed that 3,903 (56 percent) of the
                                  7,032 cases were already over-age at the time they were
                                  received at the Brookhaven Campus. The percentage of
                                  over-age reconsideration cases received from other IRS
                                  offices ranged from 25 to 79 percent.
                                  To achieve the lowest over-age percentage possible,
                                  ASFR Program management at the Brookhaven Campus has
                                  been determining the specific sites that are delaying
                                  shipment of the reconsideration work. Brookhaven Campus
                                  ASFR Program management has coordinated with the
                                  sending sites and the Brookhaven policy staff to improve
                                  shipping timeliness and has revised operating procedures for
                                  identifying and mailing ASFR Program reconsideration
                                  cases. While the national/local initiatives have helped to
                                  reduce the ASFR Program reconsideration over-age
                                  inventory from 38 percent in June 2004 to 13 percent in
                                  September 2004, the over-age inventory remains at a high
                                  level.

                                  Recommendation

                                  To further reduce the percentage of ASFR Program
                                  reconsideration inventory that is over-age and thus improve
                                  IRS service to taxpayers by more timely resolving cases in
                                  which the taxpayers are making an attempt to become
                                  compliant, the Commissioner, SB/SE Division, should:

                                                                                        Page 19
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                  5. Provide guidance to all SB/SE Division collection
                                     offices that contribute to the over-age ASFR Program
                                     reconsideration inventory, establish service level
                                     agreements with the offices most responsible for the
                                     routing delays to set guidelines for timely submission of
                                     ASFR Program reconsideration returns, and examine
                                     whether systemic solutions could be developed to reduce
                                     the percentage of over-age reconsideration inventory.
                                  Management’s Response: The Commissioner, SB/SE
                                  Division, stated the ASFR Program was centralized in
                                  January 2004, but agreed there are additional actions which
                                  can be taken to clarify the processing for the ASFR Program
                                  reconsideration returns. The Commissioner, SB/SE
                                  Division, will revisit the procedures and develop processes
                                  for monitoring and handling ASFR Program cases to reduce
                                  the percentage of over-age reconsideration inventory.




                                                                                      Page 20
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of the audit was to determine whether the Small Business/Self-Employed
(SB/SE) Division Automated Substitute for Return (ASFR) Program is effectively administered
to achieve the desired program results and promote taxpayer compliance with the tax laws. The
audit objective was accomplished by interviewing Internal Revenue Service (IRS) managers and
program analysts at the SB/SE Division Headquarters office and at the Brookhaven Campus,1
conducting a walk-through of ASFR Program and ASFR Program reconsideration campus
activities, and reviewing management information system reports and other documentation
related to ASFR Program and ASFR Program reconsideration activities.
To accomplish our objective, we:
I. Determined whether the ASFR Program is effectively designed and used to support the IRS
   strategies, plans, policies, and procedures for ensuring filing compliance and for achieving the
   desired program results.
    A. Reviewed the SB/SE Division Fiscal Year (FY) 2004 – FY 2005 Strategy and Program
       Plan, SB/SE Division FY 2003 and FY 2004 Compliance Operations Program Letters,
       FY 2004 IRS Annual Performance Plan, SB/SE Division Compliance FY 2004 Business
       Plan, ASFR Consolidation Action Plan, SB/SE Research study Automated Substitute for
       Return Subsequent Fact of Filing, and IRS’ Statistics of Income study Nonfiler Profiles,
       Fiscal Year 1993: A Focus on Repeaters.
    B. Interviewed SB/SE Division Headquarters Compliance Policy’s Return Delinquency
       analysts and Centralized Workload and Selection Development analysts and SB/SE
       Division Headquarters Compliance Services analyst.
    C. Interviewed the SB/SE Division Headquarters Nonfiler analyst and ASFR Program
       analysts and the SB/SE Division Brookhaven Campus Compliance Services Campus
       Operations (CSCO) manager and ASFR Program department managers to evaluate the
       effectiveness of the case selection process for assigning cases to the ASFR Program.
    D. Interviewed SB/SE Division Brookhaven Campus ASFR Program department managers,
       reviewed Internal Revenue Manual (IRM) section 5.18.1 ASFR Program, and analyzed
       the Brookhaven Campus ASFR Program weekly reports for the period February 25 to
       September 29, 2004,2 to identify key processing stages of ASFR Program activities and to
       evaluate timeliness and quantity standards used for the ASFR Program.

1
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  Brookhaven Campus did not start maintaining data for these reports until February 25, 2004. Thus, the weekly
reports available for FY 2004 were from February 25, 2004, to September 29, 2004.
                                                                                                         Page 21
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

    E. Interviewed the SB/SE Division Headquarters Strategy Research and Performance
       Management analyst and Brookhaven Campus SB/SE Division CSCO manager and
       Planning and Analysis manager/analysts and reviewed the October 2003 through
       July 2004 ASFR Program managerial and nonmanagerial quality reviews3 to determine
       whether the quality assurance data is sufficient to monitor the ASFR Program.
II. Determined whether the management information reports the IRS uses to monitor and
    evaluate the SB/SE Division ASFR Program activities are sufficient.
    A. Obtained and reviewed FYs 2002, 2003, and 2004 ASFR Program management
       information reports used by SB/SE Division Headquarters to monitor ASFR Program and
       ASFR Program reconsideration activities.
    B. Interviewed the SB/SE Division Headquarters ASFR Program analysts and Business
       Systems Planning manager/analysts, analyzed FYs 2002, 2003, and 2004 ASFR Program
       management information reports with corresponding Full-Time Equivalent (FTE)4 levels,
       and reviewed FYs 2002, 2003, and 2004 SB/SE Division Service Center Collection
       Branch (SCCB) Delinquent Returns Activity Reports (Report Symbol NO-5000-139) to
       determine the significant productivity, effectiveness, and efficiency measures for ASFR
       Program and ASFR Program reconsideration cases.
    C. Analyzed the FYs 2002, 2003, and 2004 ASFR Program management information reports
       and the FYs 2002, 2003, and 2004 SB/SE Division SCCB Delinquent Returns Activity
       Reports (Report Symbol NO-5000-139) to determine whether the annual statistics for
       direct FTEs, number of cases selected and closed, returns secured, dollars assessed,
       dollars collected, and dollars refunded are gathered by SB/SE Division management.
    D. Interviewed the SB/SE Division CSCO manager and ASFR Program department
       managers to determine how ASFR Program and ASFR Program reconsideration cases are
       scheduled, including the standards used, and the actual work performance levels.
III. Determined whether the actions IRS management has taken to deal with high-income
      nonfilers has had the desired effect of reducing high-income filing noncompliance.
    A. Interviewed the SB/SE Division Workload Planning analyst and obtained the
       FYs 2002, 2003, and 2004 funding levels for the ASFR Program.
    B. Reviewed the FYs 2002, 2003, and 2004 SB/SE Division SCCB Delinquent Return
       Activity Reports (Report Symbol NO-5000-139) to obtain the net assessments for ASFR
       Program cases.




3
  We examined quality reviews for the current fiscal year, FY 2004. At the time of our visitation, the quality
reviews available for FY 2004 began in October 2003, ending July 2004.
4
  An FTE is a measure of labor hours. One FTE is equal to 8 hours multiplied by the number of compensable days
in a particular fiscal year. For FY 2004, 1 FTE was equal to 2,096 staff hours.
                                                                                                       Page 22
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

      C. Obtained and analyzed the ASFR Program productivity levels and interviewed SB/SE
         Division Headquarters ASFR Program analysts and the SB/SE Division CSCO
         manager/analyst to determine the actions IRS management has taken or is taking to
         improve productivity levels.
      D. Interviewed IRS Modernization and Information Technology Services organization
         specialists and SB/SE Division Headquarters ASFR Program analysts, reviewed IRM
         section 5.19.3 Liability Collection – Backup Withholding Program, and examined the
         Internal Revenue Code (I.R.C.) Section (§) 34065 to determine whether the IRS
         application of backup withholding could be expanded to encourage future voluntary
         filing compliance for nonfilers whose cases were unsuccessfully resolved by the ASFR
         Program.




5
    I.R.C. § 3406 (2004).


                                                                                        Page 23
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
William E. Stewart, Audit Manager
E. John Thomas, Lead Auditor
Carole E. Connolly, Senior Auditor
Gwendolyn S. Gilboy, Senior Auditor




                                                                                       Page 24
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Government Liaison & Disclosure, Small Business/Self-Employed
Division SE:S:CGL&D
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 25
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                                                                                     Appendix IV


                                             Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
    •    Increased Revenue – Potential; $9 million for 1 year; $45 million over 5 years
         (see page 12).
Methodology Used to Measure the Reported Benefit:
The following is a general summary of the methodology used to measure the reported benefit.
Increased Revenue: Backup withholding.
Our estimate of increased revenue is based on the belief that long-term return filing compliance
by those taxpayers subject to Automated Substitute for Return (ASFR) Program compliance
treatments could be improved by expanding the backup withholding compliance tool. For
Fiscal Year (FY) 2004, the Small Business/Self-Employed (SB/SE) Division ASFR Program
generated net tax assessments1 of $1.509 billion.2 An Internal Revenue Service (IRS) study3 for
Tax Years 1996 and 1997 showed that, in the year following the ASFR Program compliance
treatment, 41 percent of taxpayers voluntarily filed their tax returns while the other 59 percent
remained noncompliant. If these filing compliance percentages and the net ASFR Program
assessments remain the same for FY 2005, the IRS can expect to voluntarily collect 41 percent of
the ASFR Program assessments, or $618,690,000 ($1,509,000,000 x 41 percent). This leaves the
remaining 59 percent, or $890,310,000 ($1,509,000,000 x 59 percent), that will require IRS
intervention and/or IRS collection enforcement action. These estimates assume the taxpayers
that voluntarily file their tax returns will also pay the amount due in full, which may be overly
optimistic since these taxpayers have been noncompliant in the past.
Assuming 1 percent of the $890,310,000 can be collected through expanded authority of backup
withholding, the additional IRS collections would be $8,903,100 ($890,310,000 x 1 percent) for
1 year, or $44,515,500 ($8,903,100 x 5) over 5 years. The 5-year estimate may represent the low

1
  In an ASFR Program assessment, the Internal Revenue Service determines the taxpayer’s liability using a filing
status of single, the standard deduction, and income information available from third parties and notifies the
taxpayer it will assess this amount unless the taxpayer responds by filing a correct return for a different amount,
often a lesser amount than the ASFR assessment.
2
  SB/SE Division Service Center Collection Branch Delinquent Returns Activity Report (Report Symbol
NO-5000-139), dated September 29, 2004.
3
  Automated Substitute for Return Subsequent Fact of Filing, by SB/SE Division Research function, dated
May 2003.
                                                                                                             Page 26
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

end for both the amounts collected and the amounts requiring an IRS intervention or collection
enforcement action because the SB/SE Division ASFR Program production goals and Full-Time
Equivalents (FTE)4 are expected to increase in FY 2005 and later years. For example, the
FY 2004 production goal was 141,490 cases while the FY 2005 production goal is
396,392 cases, an increase of 180 percent. The SB/SE Division applied 181 FTEs to its ASFR
Program in FY 2004, while the planned increase for FY 2005 is 37 FTEs, an increase of
20 percent. The planned increase for FY 2006 is an additional 65 FTEs, an increase of
58 percent over the FY 2004 level.
The 1 percent improvement factor we used to calculate the additional yearly revenues as a result
of expanding the backup withholding compliance tool was arrived at by considering the
improved filing compliance rate achieved during the IRS study5 of using a predictive dialer to
call taxpayers to advise them of a pending ASFR Program action. This study resulted in a
secured return rate of 33 percent. This represented a 20 percent increase over FY 1997, a
23 percent increase over FY 1996, and a 28 percent increase over FY 1995 when the predictive
dialer was not used.
In our view, an expanded backup withholding compliance tool represents a stronger leverage
action because withholding payments will be made to the IRS at the time of payor distributions
for all nonwage income sources. Since the IRS will collect a portion or all of the taxes due,
taxpayers should be more likely to timely file their tax returns. The 1 percent improvement
factor may be a conservative estimate because the predictive dialer tests showed improvements
significantly greater. Also, a private sector study6 of 327 entities that had undergone
reengineering initiatives in 2002 showed that 54 percent of the participants expected
improvements of over 30 percent. In addition, to address the principle of equal treatment of
taxpayers in similar situations, consideration in evaluating the recommendation also needs to be
given to the Wage and Investment Division ASFR Program, which had net ASFR Program
assessments of $2.505 billion in FY 2004.




4
  An FTE is a measure of labor hours. One FTE is equal to 8 hours multiplied by the number of compensable days
in a particular fiscal year. For FY 2004, 1 FTE was equal to 2,096 staff hours.
5
  Telecomputer Test for the ASFR Program in the Austin Service Center, conducted in FY 1998.
6
  Prosci’s 2002 Best Practices in Business Process Reengineering Report.
                                                                                                       Page 27
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement

                                                                          Appendix V


                    Management’s Response to the Draft Report




                                                                                Page 28
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement




                                                                                Page 29
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement




                                                                                Page 30
The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the
Automated Substitute for Return Program, but Opportunities Exist for Further Improvement




                                                                                Page 31
